         REDACTED AND UNCLASSIFIED




THE FEDERAL BUREAU OF INVESTIGATION’S
     FOREIGN LANGUAGE PROGRAM –
TRANSLATION OF COUNTERTERRORISM AND
COUNTERINTELLIGENCE FOREIGN LANGUAGE
              MATERIAL

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 04-25
                 July 2004



          REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


    THE FEDERAL BUREAU OF INVESTIGATION’S
          FOREIGN LANGUAGE PROGRAM
                TRANSLATION OF
  COUNTERTERRORISM AND COUNTERINTELLIGENCE
          FOREIGN LANGUAGE MATERIAL
                                                                      *
                            EXECUTIVE SUMMARY

       Critical to the Federal Bureau of Investigation’s (FBI) success in
protecting national security is its ability to prioritize, translate, and understand
in a timely fashion the information to which it has access. In this regard, the
Foreign Language Program’s support to the FBI’s law enforcement function is
substantial. In addition to supporting the FBI’s two highest priorities of
counterterrorism and counterintelligence, increasing demands have been placed
on the Foreign Language Program to support the FBI’s criminal and cyber-
crimes programs, international training, international deployments, and
interpreting/interviewing assignments.1

      Prior reviews of the FBI’s Foreign Language Program revealed severe
shortages of linguists that resulted in the accumulation of thousands of hours of
audio and videotapes and thousands of pages of text going unreviewed or
untranslated. As the FBI continues to focus its priorities on counterterrorism
and counterintelligence, it must rely heavily on linguistic capabilities for
interview support and surveillance activities.


       1
           For example, more field offices are pursuing the Title III (criminal) surveillance
technique versus the Title 50 (FISA) surveillance technique. Even though a case may be
captioned as a counterterrorism investigation, the Title III investigative technique has inherent
legal requirements that preclude the Foreign Language Program from using its distributive
nature of work processing. As a result, the Foreign Language Program has had to detail
linguists to various offices, sometimes for months at a time, in support of Title III
investigations. In addition to electronic surveillance (Titles III and 50), the Foreign Language
Program is routinely asked to provide on-site foreign language support in the execution of
search warrants, interviews with subjects, and polygraph examinations.

        * This is an unclassified executive summary of the Office of the Inspector General’s
(OIG) 157-page audit report, which was classified “Secret” by the Federal Bureau of
Investigation (FBI). To create an unclassified executive summary for public release, the OIG
redacted (whited out) the portions of the full executive summary that were classified by the
FBI. The redacted portions are noted, and included references to specific languages and FBI
field offices, and the identification of certain capabilities and vulnerabilities. The full report
was provided previously to the Department of Justice, the FBI, and several Congressional
committees.
                                                  i


                            REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


       The FBI’s linguists play a critical role in developing effective intelligence
and counterterrorism information. Linguists are the first line of analysis for
information collected in a language other than English. Linguists must use their
judgment in filtering the information to ensure that information of potential
intelligence value is passed along to agents or analysts. Linguists must sort
through the thousands of hours and pages of intercepted telephone
conversations and documents to identify pertinent foreign intelligence
information. Information of intelligence value is often subtle, because the
parties to the conversation may suspect they are being monitored. For
example, linguists must be able to recognize coded words or the implications of
a conversation when the parties refer to issues cryptically. This requires high
standards of language proficiency and cultural knowledge.

      The Foreign Language Program presents significant management
challenges for the FBI, including prioritizing workload and balancing limited
resources. As a result, the Office of the Inspector General initiated this audit to
assess the FBI’s ability to translate critical foreign language material and
success at meeting linguist hiring goals and examine whether the FBI’s
procedures ensure the appropriate prioritization of work, accurate and timely
translations of pertinent information, and adequate pre- and post-hire security
screening of linguists. With regard to our prioritization tests, we focused on the
FBI’s counterterrorism Foreign Intelligence Surveillance Act (FISA) audio
material.2


Foreign Language Program Development

       According to the FBI, the Foreign Language Program has experienced
dramatic changes over the last several years.3 In January 1999, the then
Language Services Unit was elevated in organizational status to become the
Language Services Section. Since then, foreign language program operations
have evolved from a highly decentralized environment to one that is now highly
centralized at FBI Headquarters. The Language Services Section now centrally
manages a program consisting of over 1,200 linguists and a program
management staff of 65 employees. The Section’s scope of responsibility has
significantly and substantively expanded. For example:



       2
          Appendix 1 contains this audit’s objectives, scope, and methodology. Appendix 2
contains a list of acronyms used throughout the report.

       3
         See Appendix 3 for information on the origins of the FBI’s foreign language program
and an evolutionary time line, as provided by the Language Services Section.
                                              ii


                          REDACTED AND UNCLASSIFIED
               REDACTED AND UNCLASSIFIED



•   In October 2000, the Language Services Section assumed
    responsibility for centrally managing the recruitment and applicant
    processing of the FBI linguist candidates. According to Section
    management, following this centralization, the number of linguists
    approved by the FBI increased from less than 80 per year to an
    average of more than 200 per year. The composition of the foreign
    language program’s workforce has also markedly shifted to one that
    is weighted more heavily to counterintelligence and
    counterterrorism languages.

•   In November 2001, the Language Services Section established the
    Language Services Translation Center at FBI Headquarters for the
    primary purpose of ensuring that language resources are effectively
    aligned with national priorities established by the FBI’s operational
    divisions. Through this action, the FBI’s Foreign Language Program
    moved from a decentralized operating environment to a highly
    centralized one in an effort to allow more effective allocation and
    prioritization of resources. As the central management authority
    for workflow throughout the field, the Language Services
    Translation Center assesses translation requests and nationwide
    availability of linguist resources and notifies field offices of actions
    to take, such as forwarding audio to the Center for translation or to
    another field office.

•   In June 2002, the Language Services Section established an English
    Monitoring Facility. The Section determined that considerable
    volumes of audio collected pursuant to FISA authority consisted of
    non-foreign language material that could be reviewed effectively by
    an English-only speaker, leaving the foreign language material for
    review by linguists. [CLASSIFIED INFORMATION REDACTED].

•   The Section Chief is now responsible for strategic, budget, and
    workforce planning for the national program. These matters were
    previously the responsibility of individual operational divisions.




                                 iii


               REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


FBI Linguistic Capabilities

        The FBI’s approximately 1,200 linguists are stationed across the United
States in 52 field offices and Headquarters. They are connected via secure
communications networks that allow a linguist in one FBI office to work on
projects for any other office. As of April 2004, the 1,200 linguists consisted of
about 800 contract linguists and 400 language specialists.4 Functionally, there
is little difference between contract linguists and language specialists.
Language specialists are employees of the FBI, while contract linguists are
contractors. In addition, unlike language specialists, contract linguists are not
under an obligation to be available for work. According to the FBI, contract
linguists assigned to counterterrorism and counterintelligence matters work an
average of 29 hours per week. FBI officials told us that the lack of contract
linguist full-time availability can disrupt the normal course of investigations and
an office’s ability to monitor FISA lines on a near-live basis.5

       Since September 11, 2001, the FBI’s Foreign Language Program has
experienced a large influx of funding and linguists. Language program funding
increased from $21.5 million in fiscal year (FY) 2001 to nearly $70 million in
FY 2004; the number of linguists has grown from 883 in 2001 to 1,214 as of
April 2004.6 According to the FBI, its linguist growth occurred at the maximum
rate that the FBI’s congressionally earmarked funding would allow. As shown
in the following chart, the FBI has increased its linguist capabilities in languages
associated with counterterrorism and counterintelligence activities.




       4
           In addition, over 1,000 special agents and analysts complement the FBI’s core
linguistic capabilities with foreign language proficiencies at the minimum working level or
higher. However, according to the FBI, few of the agents and analysts are ever available to
support the Foreign Language Program in a linguist capacity.

       5
           The FISA Statute provides legal standards related to wiretapping against foreign
powers and agents of foreign powers in the United States. According to the FBI, nearly all of
the intelligence derived from the FBI’s use of the FISA authority is in a language other than
English and must be translated. The FBI defines near-live basis as within 12 hours.

       6
           However, $38.5 million of the $70 millio n in FY 2004 funding came from a
supplemental appropriations bill, and only $9 million will recur in FY 2005. Moreover, funding
statistics do not include available funds for FBI language specialist salaries and benefits.
According to the FBI, language specialist salaries and benefits totaled $30.7 million in FY 2001,
$33.6 million in FY 2002, and $37 million in FY 2003.
                                                iv


                           REDACTED AND UNCLASSIFIED
                                REDACTED AND UNCLASSIFIED


                                 Growth in Cadre of Linguists
                                 (FBI Employees and Contract Linguists)

                          220
                          200
                          180
                          160
              Linguists


                          140
                          120
                          100
                           80
                           60
                           40
                           20
                            0
                                         Ch u
                          Pa i
                               ic



                              to




                                         Ru h
                                                 se

                                                 ch
                              rs




                                                  n




                                                sh
                                                 w




                                               ian
                                                 d




                                                is
                                             rea
                            ab



                            sh
                            Fa



                                             Ur




                                            bre
                                            en
                                           ine




                                            rki
                                            rd

                                           ss
                          Ar




                                          Ko




                                          Tu
                                         Ku
                                          Fr

                                         He
                                    Sept. 11, 2001
                                                 Language
                                                    April 1, 2004
Source: FBI Language Services Section.




Foreign Language Program Workload and Backlog Statistics

       The information on the translation workload and backlog presented in this
report is based on the FBI’s data for the foreign language program. Each FBI
field office and the Language Services Translation Center is required to submit
a survey quarterly to the Language Services Section for each language
processed at that office. The survey requires the reporting of the volume of
audio/video and text collected, forwarded to another office, received from
another office, and reviewed. The quarterly survey does not require the
reporting of backlog, which the FBI defines as any unreviewed material. Field
offices manually compile the survey data from a number of sources. Results
are recorded either manually or electronically on a WordPerfect form and
mailed or e-mailed to the Language Services Section where the data from each
office is entered into an Excel spreadsheet. Supervisory Language Specialists
at the offices we audited with high volumes of translation work told us that it
takes about a week to compile all the statistics and prepare the reports. As
recognized by Foreign Language Program management, this process is
inefficient and imprecise, and the use of these data is limited in that it may not
accurately reflect the amount of unreviewed material. Therefore, our
discussions in this report of the foreign language program’s workload and

                                                   v


                                REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


backlog are presented with this caveat. However, recognizing the limitations of
the survey data, we present these statistics because they are the only data
available at this time. Further, these data are the same data the Language
Services Section uses for budget preparation, workforce planning, and
measuring success toward its strategic objective of 100 percent coverage of
FBI-collected intelligence.

       Because of the inefficiency and imprecision of its workload survey
process, the Language Services Section is working with the FBI’s Information
Technology Division on the development of a nationally integrated statistical
collection and reporting system known as the Electronic Surveillance Data
Management System (EDMS). According to the FBI, EDMS ultimately will be
the presentation/reviewing system for all FISA digital data collected and will be
able to monitor all information for potential backlog and duration of backlog.
The system will also provide statistical reports regarding backlog. The phased
rollout of EDMS is planned to begin in FY 2005.


The FBI’s Ability to Translate All Critical Foreign Language
Material

      After the terrorist attacks of September 11, 2001, the FBI Director stated
that the FBI needed to change from an agency primarily focused on
investigating crime to one whose primary focus is the prevention of future
terrorist attacks. The FBI’s change in focus shifted agent investigative
resources to counterterrorism and counterintelligence programs heavily
dependent upon electronic surveillance collection.7

       The FBI’s electronic surveillance collection in languages primarily related
to counterterrorism activities (i.e., Arabic, Farsi, Urdu, and Pashto) has
increased by 45 percent, when comparing total collection in FY 2003 to total
collection in FY 2001. Text collection in these languages has increased 566
percent, increasing from 2 percent of total collection in FY 2001, when
combining audio and text collection, to 10 percent in FY 2003. Translation
growth rates in these languages are expected to trend upward by at least
15 percent annually. Further, the FBI expects translation growth in languages
primarily related to counterintelligence activities, [CLASSIFIED INFORMATION

       7
          For additional information on the FBI’s shift of resources, see OIG Audit Report 03-37,
Federal Bureau of Investigation Casework and Human Resource Allocation (September 2003).
In that audit, we examined the FBI’s use of personnel resources in its investigative programs
over an almost 7-year period. We found that the FBI’s resources utilized for terrorism- related
matters remained dra matically higher after September 11, 2001, than resources allocated prior
to September 11, 2001.
                                               vi


                           REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED


 REDACTED], to trend upward by at least 10 percent annually. The following
 table depicts the increase in material requiring translation since FY 2001.

          FOREIGN LANGUAGE MATERIAL COLLECTION STATISTICS8

                                                                                                       Percent of
                                                        Percent                        Percent           Total
                                                       Increase                       Increase                   10
                                                                                                      Collection
                                        Audio             Over           Text            Over
                           Fiscal     Collection       FY 2001        Collection      FY 2001
        Program 9          Year        (Hours)           Levels        (Pages)          Levels       Audio          Text
 Counterterrorism            2001         193,819          N/A           233,214          N/A         98%             2%
 Program                     2002         232,633            20%         814,746           249%       93%             7%
 [CLASSIFIED
 INFORMATION                                                                                            90%         10%
 REDACTED]                   2003         281,476            45%       1,553,997           566%
 Counterintelligence         2001         273,411          N/A           263,588          N/A           98%          2%
 Program                     2002         276,503             1%         304,882            16%         98%          2%
 [CLASSIFIED
 INFORMATION
 REDACTED]                   2003         439,038            61%         509,364             93%        98%          2%
Source: OIG developed from FBI Language Services Section workload data.
Note:     For FY 2004 (through December 2003), the total counterterrorism audio and document collection was
          81,290 and 306,831, respectively; the total counterintelligence audio and document collection was
          98,017 and 224,767, respectively. Text collection as a percentage of total collection for
          counterterrorism and counterintelligence was 7 percent and 4 percent, respectively, for the first three
          months of FY 2004.


        The FBI cannot translate all the foreign language counterterrorism and
 counterintelligence material it collects. The FBI’s collection of material
 requiring translation has continued to outpace its translation capabilities. In
 fact, despite the infusion of more than 620 additional linguists since




          8
          The standard used by the FBI for resource planning is that one full-time linguist can
 review 1,000 hours of audio or 50,000 pages of text a year.

          9
           Since September 11, 2001, the FBI has received material in 72 languages, 56 of which
 the FBI had the capability to address with language specialists, contract linguists, or FBI
 employees in a non-linguist occupation. When the FBI does not have linguist resources in a
 particular language, it relies on assistance from other agencies, such as the National Security
 Agency.

          10
               These statistics were calculated using the FBI’s resource planning standard for audio
 and text.

                                                            vii


                                   REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


September 11, 2001, the FBI reported that nearly 24 percent of ongoing FISA
counterintelligence and counterterrorism intercepts are not being monitored.1 1

      With respect to unreviewed material, the FBI currently only tracks
backlog for counterterrorism FISA cases, and the FBI only does so by case, not
by language. Using available foreign language program data, we compiled the
following statistics which show that since September 11, 2001, more than
89,000 hours of [CLASSIFIED INFORMATION REDACTED] audio and
30,000 hours of audio in other counterterrorism languages have not been
reviewed. Additionally, over 370,000 hours of audio in languages associated
with counterintelligence activities have not been reviewed, including over
116,000 hours in [CLASSIFIED INFORMATION REDACTED] and 88,000 hours in
[CLASSIFIED INFORMATION REDACTED].

       While the FBI also has audio material supporting criminal cases that has
not been reviewed, we examined and compiled the backlog statistics for audio
collected for counterterrorism and counterintelligence cases – the FBI’s two
highest priorities as established by the FBI Director after September 11, 2001.
In addition, we focused on the unreviewed counterterrorism and
counterintelligence audio material instead of text material, because text
collection, although it has increased since FY 2001, only represented a small
percent of the FBI’s foreign language workload in the high volume
counterterrorism and counterintelligence languages – 7 percent and 4 percent,
respectively, in the first quarter of FY 2004. However, we recognize that
translation of text material also may be of critical importance and a high
priority for the FBI.




       11
            According to Language Services Section hiring statistics, from September 11, 2001,
through April 1, 2004, the FBI hired 626 linguists – 548 contract linguists and 78 language
specialists. However, considering attrition during this time frame, the net increase in linguists
as of April 1, 2004, was 331.
                                               viii


                           REDACTED AND UNCLASSIFIED
                                    REDACTED AND UNCLASSIFIED


                    COUNTERTERRORISM AND COUNTERINTELLIGENCE
                                 AUDIO BACKLOG
                                    (FY 2002 through 1st Quarter FY 2004)

                                             Accrued Unreviewed Total Audio Collected
                                               Audio FY 2002        FY 2002 through       Percent
                                             through 1 st Quarter 1 st Quarter FY 2004 Unreviewed of
           LANGUAGE12                         FY 2004 (Hours)            (Hours)       Total Collected
  All Languages Translated For
  Counterterrorism and                                       499,611                   1,675,268                 30%
  Counterintelligence Cases
  Counterterrorism Language
                                                             123,638                     617,331                 20%
  Totals



                                        [CLASSIFIED INFORMATION REDACTED]



  Counterintelligence Language
                                                             370,840                     974,694                 38%
  Totals




                                        [CLASSIFIED INFORMATION REDACTED]




  Other Languages Translated
  for Counterterrorism and
                                                                  5,133                   83,243                  6%
  Counterintelligence Cases

                                        [CLASSIFIED INFORMATION REDACTED]
  Source: OIG developed from FBI Language Services Section workload data. Data are unaudited by the OIG.

  Note:        Totals include all languages, but only individual languages with more than 1,000 hours of unreviewed
               audio are listed.




          12
            Traditionally, the majority of the FBI’s collection for these languages primarily has
been associated with counterterrorism and counterintelligence cases, as indicated in the table.
Collection in these languages may be associated with both types of cases, as well as criminal
cases. Because field offices are not required to separately report counterterrorism and
counterintelligence collection, it is not possible to distinguish these two activities within a single
language. Criminal collection is not included in this table.
                                                             ix


                                    REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


      We provided the backlog statistics we compiled to the FBI. According to
the FBI, the Foreign Language Program is unable to review 100 percent of all
FISA collection due to personnel and infrastructure shortages. The FBI stated
that as additional resources become available, it fully intends to review
unaddressed workload generated by many investigations should circumstances
warrant. The FBI further stated that over time the intelligence value of
unreviewed materials may fully degrade for myriad reasons, particularly in the
counterintelligence arena, and that each FBI case is unique and judgments
about the review of unreviewed materials rests with case agents and field office
and operational division management officials. The FBI also stated that when
these officials conclude that there may be investigative value in reviewing
archived materials and linguists are available, these materials can be reviewed.
With regard to the reliability of the backlog statistics, the FBI did not take
exception to our use of the Foreign Language Program’s workload data to
compute the approximate amount of unaddressed audio supporting
counterterrorism and counterintelligence investigations. However, the FBI
stated that given the imprecision of the Foreign Language Program’s workload
reporting process, the data cannot be reliably used to determine the exact
amount of unreviewed material.

       The purpose of our presentation is to provide the best available FBI data
on the extent of unreviewed audio by language, field office, and fiscal year. As
mentioned previously, we used the same data that the Language Services
Section uses for budget preparation, workforce planning, and measuring
success toward its strategic objective of 100 percent coverage of FBI-collected
intelligence. In our judgment, the backlog statistics have value, even though
we agree that the imprecision of the FBI’s workload reporting process may
result in statistics that may not be completely accurate in describing the exact
amount of unreviewed material. In presenting the statistics, it is not our intent
to imply that all previously unreviewed material should now be reviewed. In
addition, we recognize that the unreviewed audio may not necessarily represent
critical intelligence information or even material that requires foreign language
translation.13




       13
          At the present time, the FBI’s digital collection systems cannot reliably filter out
“white-noise” and unintelligible audio.
                                                 x


                            REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


      As described below, we attributed the FBI’s backlog of unreviewed
material to its difficulties in hiring sufficient numbers of linguists and limitations
in the FBI’s translation information technology systems.


Difficulties in Hiring Linguists

       At a news conference with the Attorney General on September 17, 2001,
the FBI Director announced the FBI’s critical need for additional Arabic, Farsi,
Pashto, and Mandarin contract linguists. According to the FBI, more than
20,000 applications spanning the foreign language spectrum were received by
its on-line employment application collection system within the next 30 days.
The FBI estimates that the contract linguist vetting process eliminates over
90 percent of the applicants processed for hiring.14 The ratio
of contract linguist applicants selected for processing to hires is as follows:
FY 2002 – one hire for every 14 applicants, FY 2003 – one hire for every
13 applicants, first half of FY 2004 – one hire for every 19 applicants. For those
applicants who pass the vetting process and are hired, the applicant processing
cycle is about 13 months.15

      As previously mentioned, from September 11, 2001, through April 1,
2004, the FBI hired 626 linguists – 548 contract linguists and 78 language
specialists. Nonetheless, the FBI has difficulty hiring linguists because it must
compete with other Intelligence Community agencies as well as private firms.
Despite the fact that the government has employed thousands of linguists,
these numbers are not sufficient to keep abreast of the changing requirements
of the Community’s intelligence mission. Because Intelligence Community
agencies are responding to similar threats, linguists in the same languages are
in high demand at each agency.


System Limitations

      In addition to hiring difficulties, we also found that system limitations
contributed to the FBI’s backlog of unreviewed material. The FBI’s digital

       14
           The contract linguist vetting process includes language proficiency testing, a
personnel security interview, a polygraph examination, and a background investigation. Only
upon the successful completion of all stages of the vetting process are contract linguist
applicants approved and granted a Top Secret security clearance.

       15
           The applicant processing cycle is calculated from the date the Language Services
Section notifies the field office to begin an applicant’s processing to the date the applicant’s
security clearance is granted.
                                                 xi


                            REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


collection systems have limited storage capacity. Because of this, audio
sessions resident on a system are sometimes deleted through an automatic file
deletion procedure to make room for incoming audio sessions. Although
sessions are automatically deleted in a set order, we found that sessions which
are unreviewed are sometimes included in those that are deleted, especially in
offices with a high volume of audio to review. Because these sessions have not
been reviewed, they will continue to be reflected in backlog statistics.

       The FBI has been aware of problems regarding audio sessions being
automatically deleted and the inability of the digital collection systems to
identify or quantify the volume of deleted audio. Yet, necessary system
controls have not been established to prevent critical audio material from being
automatically deleted, such as protecting sessions of the highest priority on
digital collection systems’ active on-line storage until linguists review them.
The results of our tests showed that three of eight offices tested had Al Qaeda
sessions that potentially were deleted by the system before lingui sts had
reviewed them.

      Although sessions deleted from an office’s digital collection system can be
retrieved and reimported onto the system from the copy archived on magnetic
optical disks, FBI systems and foreign language officials told us that, absent a
case agent indicating that there should have been more audio sessions
intercepted during a certain time frame, systems and foreign language staff in
an office would not know to request retrieval of any archived audio sessions.
Further, archived audio sessions do not include session status information such
as “Reviewed” or “Unreviewed.” Thus, once audio sessions have been deleted
from the active on-line storage of the digital collection systems, it is impossible
for the FBI to identify from digital collection system data those audio sessions
that have been reviewed and those that have not. Absent that information,
sessions retrieved from archive must be reviewed by linguists even though
many of these sessions may have been reviewed previously.

       In response to the growing demand for quality translation services, the
FBI built a secure communications network, known as Arachnet, to distribute
FISA audio among FBI field offices. This technology allows the FBI to more
effectively utilize its linguist pool. However, Arachnet did not always
successfully forward work from one office to another, adding to the backlog and
causing delays in the translation of potentially critical information.

       For example, in one field office, systems staff were not monitoring the
autoforwarding of audio sessions. As a result, unreviewed counterterrorism
FISA audio sessions that were programmed to be autoforwarded to another
office for translation were still on the office’s system when the sessions should
have been immediately forwarded upon intercept. Some of the unreviewed
                                          xii


                       REDACTED AND UNCLASSIFIED
                                           REDACTED AND UNCLASSIFIED


audio was more than two weeks old when we discovered this problem. In
addition, the Language Services Translation Center at FBI Headquarters, which
receives translation work from field offices, does not always receive intercepted
Al Qaeda FISA audio within 12 hours. The FBI Director expects
counterterrorism FISA audio to be reviewed within 24 hours of interception, and
FBI policy requires Al Qaeda FISA audio to be reviewed within 12 hours of
interception.16 As shown in the following table, during April 2004, 36 percent of
intercepted Al Qaeda FISA audio sessions that were forwarded to the Language
Services Translation Center were not received within 12 hours.

                             ELAPSED TIME TO TRANSFER AUDIO SESSIONS
                                   COLLECTED AT FBI FIELD OFFICES
                           TO THE LANGUAGE SERVICES TRANSLATION CENTER
                                     AT FBI HEADQUARTERS
                Sessions Received at the Language Services Translation Center in April 2004

                         12     Percent
                        Hours Received in                                                                           16 to 31 to      Total
                         or   12 Hours or 1    2     3   4    5    6    7     8   9    10   11   12   13   14   15   30    60   >60 Audio
      Language          Less     Less     Day Days Days Days Days Days Days Days Days Days Days Days Days Days Days Days Days Days Sessions

 Total
 Counterterrorism         902      59%   39   61   26    59   40   32    38    32   17   17   28   7   14   11   18   99   73    6    1,519
 Sessions All Cases

 Total Sessions -- Al
                          887      64%   20   46   19    40   37   26    28    25   17   15   23   7   14   11   18   99   46    4    1,382
 Qaeda Cases
                          588      99%                   3     1                                                            1          593
    [CLASSIFIED
                           16      15%    5   21    7    8    15    9    11     6   2          2                       2    2          106
   INFORMATION
                                    0%         1    1                                                                      41    4      47
    REDACTED]
                          283      44%   15   24   11    29   21   17    17    19   15   15   21   7   14   11   18   97    2          636
 Total Sessions --
 Non-Al Qaeda             15       11%   19   15    7    19    3    6    10     7        2     5                           27    2     137
 Cases
    [CLASSIFIED                     0%    1         7    19    3    6    10     7              4                           27    2      86
   INFORMATION            15       30%   17   15                                         2     1                                        50
     REDACTED]                      0%    1                                                                                              1
 Source: OIG developed from FBI digital collection system data.


       The FBI currently is pursuing initiatives designed to integrate advanced
technologies into its translation systems architecture. Although these efforts
are promising, more needs to be done. For example, at the Washington, D.C.,
field office, system maintenance contractors have taken steps to reduce the
volume of calls that linguists must review by removing certain unintelligible
sessions. [CLASSIFIED INFORMATION REDACTED]. This technique reduced
the volume of calls to be reviewed by linguists by almost 30,000 calls lasting
over 1,800 hours during the month of April 2004 alone. We recommend that
this best practice and others developed by individual offices should be shared
and adopted throughout the FBI.

           16
           Al Qaeda FISA audio can be translated at field offices. However, if an office does not
have sufficient linguist resources to translate the material timely, the office is required to
request translation assistance from the Language Services Translation Center.
                                                                        xiii


                                           REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


Prioritization of Workload

       Because the FBI does not have the ability to translate all of its foreign
language material, the manner in which the FBI prioritizes its translation
workload is critically important. According to the Language Services Section, it
coordinates the threat-based priority of FISA coverage with operational division
officials to ensure that it directs foreign language program resources toward
those investigations considered to be the highest priority. Nonetheless, we
found that the FBI is not providing sufficient operational information to the
Language Services Section to enable it to effectively prioritize the FBI’s
translation workload. For example, as of June 2004, the Counterterrorism
Division had not provided the Section with information identifying the relative
priority of all its cases – FISA and non-FISA – requiring foreign language
support. Further, the FBI had not provided the Language Services Section with
a complete list of Al Qaeda FISA case numbers so that it could ensure near-live
monitoring of those lines. We found that the foreign language program has not
prioritized its workload nationwide to ensure a zero backlog in the FBI’s highest
priority cases – counterterrorism cases and, in particular, Al Qaeda cases.
[CLASSIFIED INFORMATION REDACTED]. Our tests found Al Qaeda material
awaiting translation that should have already been reviewed based on the
timeliness requirement specified in FBI policy. However, the backlogs in the
offices tested were not caused by linguists in those offices translating
lower-priority material. Nonetheless, the existence of Al Qaeda backlog in any
office indicates a need for closer monitoring by the Language Services Section
so that that this work can be redistributed to other offices, if needed, to ensure
its timely translation.17




       17
            We provided the results of our prioritization tests to the FBI. The FBI commented
that all Al Qaeda cases do not necessarily represent the FBI’s only high priority matters. For
example, CT-related cases pending prosecution in court often pull tremendous levels of linguist
resources from one high priority matter to another in which much more effort must be
expended in support of the prosecution. Verbatim translations, reviews of existing translation,
and court testimony frequently require months of support by the FBI’s most proficient linguists.

                                              xiv


                           REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


Quality Control Program

       Inaccurate translations can have dire consequences to the FBI’s
intelligence gathering and investigative efforts. To better manage the risk of
material being mistranslated, the FBI instituted a national Quality Control
Program in January 2003. FBI policy states that all linguists with over one year
of experience with the FBI must undergo an annual work review. In addition,
all new linguists with less than one year of experience with the FBI are to have
all of their work reviewed for the first three months, with random quarterly
reviews during the remaining nine months and annual reviews thereafter.

       Our review of the Quality Control Program at four FBI offices found that
the new-hire and annual review requirements generally were not met in FY
2003. 18 The supervisors at the four sites we audited stated that they supported
the quality control concept; however, operational needs often took precedence
over pulling linguists off-line to complete the required quality control reviews.
Further, FBI management acknowledged that they did not expect the policy to
be fully implemented during FY 2003 due to the shortage of linguist resources
and operational demands. Therefore, we focused our audit tests on ensuring
that new-hire reviews were being conducted as required and determining
whether linguists on board for more than a year had been reviewed at least
once through April 2004.

       We found that none of the four offices reviewed 100 percent of the
translations completed by new hires during their initial three months, and the
offices generally were not performing quarterly reviews as required by FBI
policy. For linguists onboard for more than a year, none of the four sites had
reviewed all of their linguists at least once (as of April 30, 2004), as shown in
the following table.




      18
          We reviewed the quality control program at the Language Services Translation Center
at FBI headquarters and the New York, San Francisco, and Washington, D.C., field offices.


                                             xv


                          REDACTED AND UNCLASSIFIED
                               REDACTED AND UNCLASSIFIED


                            QUALITY CONTROL REVIEWS
                    OF LINGUISTS ONBOARD MORE THAN ONE YEAR
                                           (as of April 30, 2004)

                                            Total
                                            Active Number of          Number of       Percentage of
                                          Onboard Completed Percent Not Satisfactory Not Satisfactory
                                                           19
                    Office                Linguists Reviews Completed  Reviews          Reviews

 Language Services Translation Center20       32          5     16%           0             0%

 New York                                    105       71       68%           5             7%

 San Francisco                                29       12       41%           2            17%

 Washington, D.C.                             92       63       68%          10            16%
 Source: OIG developed from FBI sample site data.


       The FBI official responsible for the Quality Control Program acknowledged
that implementation of the quality control policy faced two major problems –
the Language Services Section’s inability to monitor and track nationwide
adherence to the policy because of lack of personnel and the field’s inability to
comply with the policy because managers and supervisors must use the same
linguists already overburdened with operational assignments to carry out the
quality control reviews. The official said that full operational coverage and the
accuracy of translations are of utmost importance and one priority cannot be
sacrificed for the other. The official also said that if resources become
available, the solution is to establish a permanent quality control staff,
independent of operational needs, whose primary duty would be to perform
random quality control assessments of work produced by the linguist workforce.

       In addition to lack of ongoing oversight, we believe the Quality Control
Program requires strengthening in areas such as reviewing audio sessions
deemed not pertinent, specifying certification and review requirements for
linguists that translate multiple languages, identifying responsibility for
reviewing new hires on temporary duty status, providing sufficient guidance
regarding management actions that should be taken when quality control
review results are not satisfactory, and maintaining a tracking system of all
quality control reviews.




       19
            We did not include inactive linguists.

       20
              While the Language Servic es Translation Center had completed only five reviews for
its staff, it had performed at least nine reviews for other offices.
                                                    xvi


                               REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


Post-Adjudication Risk Management
       The FBI has a difficult challenge in balancing the need for qualified
linguists with often-competing personnel security concerns. To address this
issue, the FBI instituted a post-adjudication risk management (PARM) program
in October 2002 that mandates periodic personnel security interviews and
polygraph examinations for contract linguists where the inherent risk to the
United States is higher than usual.

       As of May 2004, 193 of approximately 350 PARM reviews had been
completed, 108 were partially completed, and 48 had not been started. Of the
193 PARM reviews completed, 12 contract linguists had been suspended due to
deceptive or inconclusive polygraphs. Two of these linguists were reinstated
after a second polygraph or upon further investigation. The investigations are
still pending for the ten remaining linguists.


Recommendations
      This report contains 18 recommendations to help improve the FBI’s
Foreign Language Program. Among these recommendations are that the FBI
should:

     •     Expedite the implementation of the automated statistical reporting
           system.

     •     Ensure that each office’s digital collection system storage
           capabilities are sufficient so that unreviewed audio material for
           critical cases is not automatically deleted.

     •     Implement appropriate controls to ensure that the forwarding of
           audio via Arachnet is accomplished reliably and timely.

     •     Provide adequate information to the foreign language program
           regarding the relative priority of individual counterterrorism and
           counterintelligence cases.

     •     Strengthen quality control procedures to ensure the accuracy of
           translations and that all pertinent material is being translated.




                                      xvii


                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


     •     Implement a system to monitor compliance with quality control
           procedures, both from a field office and national level.

FBI officials were receptive to the recommendations we offered during the audit
and in many instances took corrective actions while we were on site.




                                     xviii


                      REDACTED AND UNCLASSIFIED
